No. 21-312

 

In THE
Supreme Court of the United States

VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,
PETITIONERS,

v.

STATE OF OHIO EX REL. DAVE YOST, ATTORNEY
GENERAL, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF OHIO

BRIEF OF AMICI CURIAE ALLIANCE FOR
AUTOMOTIVE INNOVATION AND NATIONAL
AUTOMOBILE DEALERS ASSOCIATION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 30, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
